o5/

-V

W-2"1

*3

No.

3l>IN THE
SUPREME COURT OF THE UNITED STATES

nu_D
MAR 3 3 2021
T! !F. CLERK
. iRT. U.S.,

Ladot) ftobtnsdn

— PETITIONER

(Your Name)
•>: -X

vs
- tr<s
'
1. Virginia Tech f^ard of Visitors, Secretary of the Board of Visitors, 319 Burruss Hall (0125)
800 Drillfield Drive, Blacksburg, VA, 24061 -----

»

ON PETITION FOR A WRIT OF-GSRTtORAftt TO

C(j~f f\pp£°J$
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF GERTIQRARf

Ci%rleS

*S

^oltr &n

(Your Name)

70S /hhfnS ffoaJ
(Address)

Sk*st,\ I// yfj7l
(City, State, Zip Code)

(zx)z/S-H-Z3l
(Phone Number)

i

RECEIVED
JUL 2 6 2021

gagaKnw

.r

4
QUESTION(S) PRESENTED

■a?

r
In your capacity as; Presiding Justice over the Fourth Circuit
I, as Plaintiff in Roberson v. Hanesbrands, and Appellant In Re: Roberson (or Roberson v.
The Board of Visitors of Virginia Tech and also Roberson v. O’Rourke {a misnomer}), must
request an expedited hearing on both associated cases and satisfy all of the rules of the court in
this petition to the best of my ability, though there are some aspects of this case that do not
have applicable rules at this time.
First I must satisfy the time for filing. Ordinarily, both would need to be returned before my
30th Birthday on June 7th. However, a quirk of Rule 27 means that these associated cases are
calculated in reverse. Ask the Clerks to double check my math, but !’m right. All of the rules that
apply to both associated cases narrow the appropriate date for filing to be expected for delivery
on 6/28/2021. This means that both cases can ONLY be mailed on 6/25/2021 and only be
shipped through USPS Priority mail two day shipping (for the main documents).
I am requesting that both cases be heard on or before 7/14/2021 (suggest doing both cases
on 7/14, and in D.C. due to the sealed nature), and the reasoning will follow. Hanesbrands is
scheduled to transfer ownership of the building to a new corporation on 7/31, and the case
should be settled before then. Also, I have a GRE test scheduled for 7/15 at 8am. I do not think
that the test should have a bearing on whether or not I am admitted into Graduate School, as
my rights have already been violated beyond the point of Virginia Tech’s opinion on the matter
being viable. However, it can be used to judge whether or not I am admitted on probation to the
Graduate School.
The Clerk of the Supreme Court said that any request for Mandamus must include what I
hope to get out of the case, so I’ll describe what I consider a flawless victory in both. In the
request for Mandamus, I would say that a majority court opinion that my Constitutional Rights
were violated beyond repair as an Undergraduate student, and that readmitting me alone would
be a further violation of my rights. Finding that I was medically incapable of succeeding at
University due to my genetic condition, the administration knew, and manipulated me to
continue only because the tuition check we’re clearing. By Order of Mandamus, force Virginia
Tech to admit me as a PhD. student in the Graduate program in Physics, and pay tuition,
provide a room at the “Graduate Life Center at Donaldson Brown", and access to the campus
Nutritionist at all times as long as I’m making satisfactory Academic progress. The likelihood of
my success in this endeavor should -not be a concern in this case. I ask only that my work be my
own and my failures be my own. \ am mentaly capable of success now that I am on Palynziq
(and years of medical data can be provided if you want me to sign a HIPPA release to the
University of North Carolina).

fe".....

—> “ J • '—>■■■ •—j ■ '.j -

-._j- - ■'! ■

O-' '*

’O.

'L J

«■_>-'ey . jV.rx-

Mv.

I
■i

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
Q^KAll parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
. petition, is. as follows:
2. Ms. Kim O'Rourke, Secretary of the B<pFd of Vlsitdrer3T9 BuifussTiiil (0125) 800 DriHfield *
Drive, Blacksburg, VA, 24061 -----3. Timothy David Sands, President; Virginia Polytechnic Institute and State UniversttyA/irginia
Tech, Office of the President (0131) Bunruss Hall, Room 210,800 Drillfield Drive, Blacksburg
VA, 24061
4. Department of Physics MC 0435 850, Graduate Program, 850 West Campus Drive,
Blacksburg, VA 24061 ------ #
5. Sharon Kurek, Executive Director of Audit, Risk, and Compliance, North End Center, Suite
3200, Virginia Tech • UP 0328, Blacksburg, VA, 24061 ------

;

RELATED CASES
In the case v. Hanesbrands, there is a monetary figure in the Petition loioeu.uia,,. tWy
proposal is that wole figure be rewarded. It may be paid out on my final paycheck. Which would
appear in my bank account on 8/6/2021. Due to the way the case began, you may find that 20%
of the gross payment is due to Snyder and Williams P.C. The address is 125 Slusher St, Stuart
VA 24171, so mail them a notice and copy of the Supreme Court’s opinion and I will write that check
“Separatkm Pay'^ ^ d'red deP°Sil ThiS paymenl should
reflected on my final pay stub as
Lastly, the reason this case was appealed so fast is that District Judge Thomas T. Cullen kept
refusing my petition for in forma pauperis without any caveats. I had left open the Judge’s discretion
fo force me to donate all winnings from the Hanesbrands case, and the Honorable judge kept
writing orders that were essentially “15 days pay or quit". Even if I paid the filing fee, the counsel for
Hanesbrands could argue that I have to donate all money or they will on my behalf The way the
Judge unwittingly denied my petition, I could win an infinite amount of money in federal court and still
CnevaPnr
" V'°la1i°n * my ri0ht,0 petition
Oovemmern for a Redress of
G/Z ^
®
S opinion should address tte issue. A copy of the opinion of both cases
should be sent amicably to Thomas T. Cullen for reference.
Very humbly and nmvously submitted,
8^*7
-

f

Charles Landon Roberson

f

P.S. A copy of all previous dismissals and this letter with its motion are sent to
P.P.S. I sweat- and affirm to the above under penalty of Perjury here:

all applicable parties.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED
CASES

BrovJft

PAGE NUMBER

/,

of

on

!/. £gn;

STATUTES AND RULES

if-fb

^

\

f\rr>eni'mwf (fyuil Mtch°^

R'dMs fief of
en&

OTHER
6. Hanesbrands Inc. 1UU0 t. Hanes iviiii rsoau w.iibion-oaiew. ,

t- ‘ tw

7. Virginia A. Piekarski, 1000 E. Hanes Mill Road Winston-Salem, NC 27105
8. Thomas T. Cullen, U S, District Judge, 210 Franklin Rd, SW, Suite 200, Roanoke, VA 24011

(/

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
0^For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
jrf^s unpublished.
The opinion of the United States district court appears at Appendix P0C- ^ to
the petition and is
\j/(reported at C& ^■ 2d'c
776/
or>
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at_.
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was —- ftS*_______________ _
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

Case

ycj

SChC
CAS&

UOJ

<xsktd -/o

1LV
involves

PisCnct Co*rC
o-nt]

/

(hfld

.

IsSUC/ SO

JVjp Cn&h

ji //,/r one./ w'l-kh -H^-lh3 Jen^C

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Jf-u, a
j\ny larts

dftCnt
(oppei do

ijr&s'dt^
ProFuyfjc

re-

f\r>y prov^^S
a fsa aff(y-

And

frOl

f>'c

7<0

FeJ-O-cJ
iffb'

enefic J /ffa'nd its)

STATEMENT OF THE CASE

Virginia Tech
Equity & Accessibility Complaint Form
Submitted on July 21, 2020 at 11:28:02 am EOT
Nature:
Urgency:
Incident Date and Time:
Incident Location:

Genetic Information
I am able to wait up to one week
2020*04-30
Online

Reported bv
Name:
Title:
Email:
Phone:
Address:

Charles Landon Roberson
Graduate Applicant
clr2624@vt.edu
(276)288-4231
1678 Campbell PO RD, Lawsonville, NC 27022
[UNAUTHENTICATED]

Respondents! and Potential Witnesses
Karen DePauw, PhD. 0
kpdepauw@vt.edu
This person or organization discriminated against me (identified respondent)
Tim Sands, PhD. 0
This person witnessed what happened (witness)

president@vt.edu

Harrison Blythe 0
I have told this person what happened to me (witness)

hblythe@vt.edu

Description of Discrimination or Harassment
Please briefly describe the situation. If you need more space, please attach a description of your allegations as a
supporting document (see below).
Karen DePauw, PhD. Denied me access to the Graduate School in a manner that violates the Genetic
Information Nondiscrimination Act of 2008 (an extension of the Civil Rights Act of 1964) I informed Karen
DePauw that I sought access to the Grad school and that my past academic struggles were due to a lack of
my necessary medication existing at the time. I sought help from SSD (Services for Students w/ Disabilities)
Several times as an Undergrad, and received little help, and often derision. The illegal violation is that Dr.
DePauw has denied me access to the Grad school and a Graduate Assistantship without offering any avenue
to which I could become eligible for admission in the future. If I am permanently so damaged that I am unable
to ever receive a Graduate level education, then Virginia Tech is legally liable for that, and Dr. DePauw is
clegally culpable for the blanket denial of access to services and employment that I am legally required to
have an opportunity to access, however slim it may be.
What would you like to see happen to remedy this situation?
To be compliant with the law before the start of the semester, I would need a Virginia Tech Official to accept
or offer an avenue to which I would qualify for admission to the Graduate School and Employment as a
Graduate Assistant. Also, if SDS is continually unwilling to support students with Rare Diseases in any real
way, then Virginia Tech must open a separate Support Office to care for its student body with Rare Diseases
and/or Genetic Conditions.

REASONS FOR GRANTING THE PETITION .
UNITED STATES DEPARTMENT OF EDUCATION
OFFICE FOR CIVIL RIGHTS
400 MARYLAND AVENUE, SW
WASHINGTON, DC 20202-1475

REGION XI
NORTH CAROLINA
SOUTH CAROLINA
VIRGINIA
WASHINGTON, DC

November 24,2020

Via email to: clandonroberson@gmail.com

* o

Charles Landon Roberson
1678 Campbell PORD
Lawsonville, NC 27022
Re:

OCR Complaint No. 11-20-2332
Dismissal Letter

Dear Mr. Roberson:
On August 6, 2020, the Office for Civil Rights (OCR) of the U.S. Department of Education (the
Department) received your complaint against Virginia Polytechnic Institute and State University
(the University). You allege that the University discriminated against you on the basis of disability
and retaliated against you. Specifically, the complaint alleges that the University denied you
admission to its physics graduate program because of your genetic condition and again in retaliation
after you challenged the decision.
.OCR enforces Section 504 of the Rehabilitation Act of 1973 (Section 504), 29 U.S.C. § 794, and its
implementing regulation at 34 C.F.R. Part 104, which prohibit discrimination on the basis of
disability in programs and activities that receive Federal financial assistance from the Department. .
OCR also enforces Title II of the Americans with Disabilities Act of 1990 (Title II), 42 U.S.C. §§
12131 et seq., and its implementing regulation at 28 C.F.R. Part 35, which prohibit discrimination
against qualified individuals with disabilities by public entities, including public education systems
and institutions, regardless of whether they receive Federal financial assistance from the
. ^oartment. Because the University receives Federal financial assistance from the Department and
1S a L'blic entity, OCR has jurisdiction over it pursuant to Section 504 and Title II.1
After carefit#vjewing the information you provided, OCR determined that we will not
investigate your <bmplaint. OCR learned that on July 21, 2020 you filed the same allegations based
on the same facLwith the University’sOffice for Equity and Accessibility, and the University
reso ve t e a lections on August 4, 2020. OCR reviewed the University’s determination. We
decided that the diversity investigated the allegations, and there was a comparable resolution
process under legaJstandards acceptable to OCR. The University’s inquiry into your allegations
found that after the iebruary 19, 2020 decision not to offer you admission to the physics graduate

■\

OCR H°tC tHa| y°f r C°*ip,|int
violations of the Genetic Information Nondiscrimination Act of 2020, a law that
TitT,fS
Ho*ever’ because your genetic condition could constitute a disability under Section 504 and
t e ii, raws UCK does nforce, we evaluated your complaint under those laws.
•

——■

Page 2 - OCR Complaint No. 11-20-2332
<

program, on April 30, 2020 you disclosed to the graduate education dean that you have a
disability/genetic condition. You claimed that after you put the dean on notice of your
disability/genetic condition, she wrote to you confirming the decision to deny your application. The
dean initially notified you that you were not admitted to the physics graduate program prior to
receiving notice of your disability/genetic condition, and after learning of it, the dean confirmed the
denial decision. Based on those facts, the University’s inquiry into your allegations determined that
there was no inference of discrimination or retaliation. Therefore, in accordance with Section
108(i)(2) of our Case Processing Manual, OCR will not conduct its own investigation of the
complaint and is dismissing the complaint as of the date of this letter.
You have a right to appeal OCR’s dismissal of the complaint within 60 calendar days of the date of
this letter. You must submit an online appeal form (https://ocrcas.ed.gov/content/ocr-electronic-_
appeals-form) or a written statement of no more than 10 pages (double-spaced, if typed) by mail to
the Office for Civil Rights, U.S. Department of Education, 400 Maryland Avenue SW, Washington,
D.C. 20202; by email to OCRfged.gov: or by fax to 202-453-6012. The filing date of an appeal is
the date that the appeal is submitted online, postmarked, submitted by email, or submitted by
fax. In the appeal, you must explain why you believe the factual information was incomplete or
incorrect, the legal analysis was incorrect, or the appropriate legal standard was not applied, and
how the correction of any error(s) would change OCR’s decision. Failure to provide this
information may result in denial of the appeal.
This letter sets forth OCR’s determination in an individual OCR case. This letter is not a formal
statement of OCR policy and should not be relied upon, cited, or construed as such. OCR’s formal
policy statements are approved by a duly authorized OCR official and made available to the public.
You may have the right to file a private suit in federal court whether or not OCR finds a violation.
We did not notify the University of your complaint. Nevertheless, please be advised that the
University must not harass, coerce, intimidate, discriminate, or otherwise retaliate against an
individual because that individual asserts a right or privilege under a law enforced by OCR or files
a complaint, testifies, assists, or participates in a proceeding under a law enforced by OCR. If this
happens, the individual may file a retaliation complaint with OCR.
Under the Freedom of Information Act, it may be necessary to release this document and related
correspondence and records upon request. If OCR receives such a request, we will seek to protect
personally identifiable information that could reasonably be expected to constitute an unwarranted
invasion of personal privacy if released, to the extent provided by law.
If you have any questions, please contact the OCR attorneys assigned to this complaint: Kristi
Bleyer, at 202-453-5901 or kristi.blever@ed.gov, and Megan Rok, at 202-453-6978 or
megan.rok@ed.gov.
Sincerely,

Digitally signed by
Michael Hing
Date: 2020.11.24
|am0l9:54:34 -05'00'
"BTsmcRTCoTumbia Office
Office for Civil Rights

i

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

